C'OCKLE

2311 Douglas Street ; E-Mail Address:
Omaha, Nebraska 68102-1214 Le 8 al Br re fs

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-840

THE STATE OF CALIFORNIA, et al.,
Petitioners,

v.
THE STATE OF TEXAS, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 13th day of May, 2020, send out
from Omaha, NE 5 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE AMERICAN THORACIC
SOCIETY IN SUPPORT OF PETITIONERS in the above entitled case: All parties required to be served have been served
either by Priority Mail or by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly
addressed to the following:

SEE ATTACHED

To be filed for:

HOPE BABCOCK*

BENJAMIN BARCZEWSKI
Institute for Public Representation
Georgetown University Law Center
600 New Jersey Avenue, NW
Washington, D.C. 20001
(202) 662-9535
hope.babcock@law.georgetown.edu

*Counsel of Record

Subscribed and sworn to before me this 13th day of May, 2020. .
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5; 2023,

 

 

Sa Wrewctaoose | /\ 0. dhoo Ondraw-h. Chl
ublic 39785

Notary P' Affiant
SERVICE LIST

Attorneys for Petitioner

Samuel Passchier Siegel

Counsel of Record

California Department of Justice

1300 I Street

Sacramento, CA 95814

(916) 210-6269

Sam.siegel@doj.ca.gov

Counsel for Petitioner State of California

Attorneys for Respondents

Noel J. Francisco

Counsel of Record

Solicitor General

United States Department of Justice
Room 5616

950 Pennsylvania Avenue, NW
Washington, DC 20530

(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent United States of America

Kyle Douglas Hawkins

Counsel of Record

Texas Attorney General’s Office

P.O. Box 12548 (MC 059)

Austin, TX 78711

512-936-1700
Kyle.hawkins@oag.texas.gov
Counsel for Respondent State of Texas

Robert Earl Henneke

Counsel of Record

Texas Public Policy Foundation

901 Congress Avenue

Austin, TX 78701

(512) 472-2700

rhenneke@texaspolicy.com

Counsel for Respondents Neill Hurley and John Nantz
Douglas Neal Letter

Counsel of Record

219 Cannon House Office Building

Washington, DC 20515

(202) 225-9700

Douglas.letter@mail.house.gov

Counsel for Respondent United States House of Representatives
